June 17, 2011

TIMOTHY F. O’REILLY
ACTING VICE PRESIDENT, CONTROLLER

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Management Advisory Report – Internal Controls Over
         Facility Rental Income (Report Number DA-MA-11-003)

This report presents the results of our review of the U.S. Postal Service’s collection of
rental income1 (Project Number 11YR002DA000). Specifically, our objective was to
assess the adequacy of internal controls over the collection of rental income. We
conducted this self-initiated review based on financial risks associated with the
misreporting or loss of rental income.

Facility rental income is generated by Postal Service outleases of owned property and
subleases negotiated by Realty Asset Management (RAM). In fiscal year (FY) 2010, the
Postal Service reported $63,593,337 in rental income for 561 leases with federal and
private sector outlease and sublease tenants. This is a $2.8 million decrease over the
prior fiscal year. In recent years, the Postal Service has experienced a dramatic
reduction in workload resulting from advancements in technology, productivity
improvements, and decreased mail volume. This workload decline has resulted in
excess real estate inventory. As the Postal Service continues to optimize this excess
space, effective controls over rental income will be critical to provide the capability to
expand rental agreements. See Appendix A for additional information about this review.

Conclusion

Postal Service internal controls over the collection and recording of rental income need
improvement. Although Postal Service real property management procedures require
rental income to be recorded under the finance number of the facility outleasing or
subleasing space2 and accounting policies require general ledger accounts to be
properly stated3, we were unable to fully reconcile tenancy payments to tenant
agreements. Specifically, we attempted to reconcile payments for tenant agreements
1
  Revenue associated with income payments made for occupying building space controlled by the Postal Service.
2
  Administrative Support Manual, Chapter 5, Facilities and Equipment, Section 517.34, Reporting Excess Space,
Buildings, and Land.
3
  Handbook F-1, Accounting and Reporting Policy, Section 2-4.1.
Internal Controls Over Facility Rental Income                       DA-MA-11-003



between the facilities Realty Asset Management Property Outlease (RAMPO) system,
St. Louis Accounting Service Center’s (Accounting) outlease sublease system, and the
general ledger. We were unable to reconcile payments between these systems for 10 of
30 sampled tenant agreements because:

    The accounting system did not adequately support monitoring and tracking of rental
    payments at the tenant/customer account level. First, many tenants remitted rental
    payments without including their account identification number. Second, rent
    payments were applied at a macro level to outstanding invoices rather than at the
    individual tenant/customer agreement level. Lastly, reports that would allow RAM to
    monitor and track payment activity at the individual tenant/customer account level
    did not exist.

    The roles and responsibilities of RAM and Accounting were not clearly defined
    relevant to the management and oversight of rental income.

    Manual processing increases the risk of errors associated with the monitoring and
    tracking of rental payments.

These weaknesses lessen the effectiveness of internal controls over rental income as
we estimate that at least 111 of the 561 tenancy agreements held during FY 2010
contain some risk of payment error. Consequently, we estimate the Postal Service
placed at least $1,532,533 in rental payments at risk for potential fraud or loss. In
addition, considering the Postal Service maintains significant excess space, adequately
controlling tenancy or rental transactions provides the Postal Service with an
opportunity to effectively expand tenancy agreements. See Appendix B for a detailed
analysis and Appendix C for an impact summary.

The U.S. Postal Service Office of Inspector General (OIG) recognizes the recent
commitment of the Postal Service to improve the controls over rental income. Earlier
this fiscal year, Accounting implemented an enhanced multi-step process to improve the
accuracy of rental income reporting by applying payments to the correct tenancy
account. While we acknowledge recent efforts, we offer the following recommendations
that would further improve the controls over rental income:

We recommend the acting vice president, controller, in coordination with the vice
president, Facilities:

1. Ensure tenants include account identification numbers with rent payments and
   develop exception reporting conducive to monitoring and tracking of payment activity
   at the tenant/customer account level.

2. Clarify roles and responsibilities related to the management and oversight of rental
   income. This should include a periodic reconciliation of Realty Asset Management
   Property Outlease rental payment amounts to the St. Louis Accounting Service




                                                2
Internal Controls Over Facility Rental Income                      DA-MA-11-003



    Center’s outlease/sublease system and general ledger at the tenant/customer
    account level.

3. Seek opportunities to automate the monitoring and tracking of rental payments.

Management’s Comments

Management agreed with all of our findings and recommendations. Specifically, they
stated that account identification is now achieved for lease payments and agreed to
monitor and track payment activity at the tenant/customer account level on a quarterly
basis beginning October 1, 2011. They will also report any exceptions, along with a
monthly report of payment delinquencies to RAMPO, for follow-up action. Management
agreed to document a comprehensive process flow that ASC and RAMPO will agree to
by June 30, 2011, and use the reconciliation and exception and delinquency reports
referenced above to keep the systems in sync. Finally, to reduce the number of manual
entries and tracking, management agreed to submit a System Change Request to
develop and deploy an automated data feed from RAMPO to the Outlease/Sublease
System to eliminate errors and prevent redundant input. This implementation will be
contingent on the Postal Service’s ability to prioritize and fund the request. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations
Attachments




                                                3
Internal Controls Over Facility Rental Income       DA-MA-11-003



cc: Megan J. Brennan
    Michael L. Goodwin
    Gabriel Benvenuto
    Jean D. Parris
    Sheryl L Stone
    Abdul R. Bah
    Corporate Audit and Response Management




                                                4
Internal Controls Over Facility Rental Income                                          DA-MA-11-003



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is responsible for maintaining a system of accounting controls that
provides reasonable assurance that transactions are executed and recorded in
accordance with management’s general or specific authorization. The checks and
balances established in the various Postal Service manuals and handbooks constitute
many of these internal controls. For example, Postal Service real property management
procedures require rental income to be recorded under the finance number of the host
facility4 and accounting policies require general ledger accounts to be properly stated.5
Additionally, Accounting must ensure its financial statements are prepared in
accordance with generally accepted accounting principles.

RAM is responsible for the revenue generation of disposed real property that has been
declared excess to operational requirements. In addition, it is RAM's responsibility to
assist areas and districts in identifying properties that may be surplus to their needs.

RAM provides internal expertise to identify, analyze, and maximize the return on excess
and underutilized real property assets. Some of the methods used to manage these
surplus properties include:

    Outleasing: When it is not possible to dispose of surplus real property by sale, the
    property may be outleased. These transactions are effected in accordance with
    prevailing market conditions at the time of the transaction.

    Subleasing/Assignment: For surplus leasehold interests, RAM considers subleasing
    or assigning the lease. However, because of the risk, before subleasing or
    assignment is considered, Facility Service Offices make every effort to negotiate a
    reasonable termination arrangement with the lessor.

The Postal Service began FY 2010 with 561 outlease and sublease agreements
representing 393 separate finance numbers.6 With each new tenant, RAM completes an
Outlease – Sublease Data Input form to update RAMPO records. Along with the tenant
information the form contains the finance number to ensure the rental income is
recorded and reported accurately. All outlease and sublease data forms are provided to
Accounting. Accounting manually enters the forms into a system that produces tenant
invoices and establishes rents receivable.




4
  Administrative Support Manual, Chapter 5, Section 517.34, Reporting Excess Space, Buildings, and Land.
5
  Handbook F-1, Section 2-4.1.
6
  RAMPO Report, dated October 1, 2009.




                                                        5
Internal Controls Over Facility Rental Income                          DA-MA-11-003



Accounting also sets policies and procedures through the following Postal Service
publications which include governance over rental income reporting:

    Handbook F-1.
    Handbook F-23, Accounting Policy Reference.
    Administrative Support Manual.

In FY 2010, $39,666,909 (or 62 percent) of the Postal Service’s rental income originated
from outlease and sublease agreements with the private sector and the remaining
$23,926,428 (or 38 percent) of the rental income was from government tenants, the
largest being the General Services Administration (GSA).

The GSA is the nation's largest public real estate organization. It provides workspace for
more than 1 million federal workers through its Public Buildings Service. Approximately
half of the employees are housed in buildings owned by the federal government and
half are located in separate leased properties.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the adequacy of internal controls over the collection of
rental income. Our scope included the review of rental income payments in FY 2010. To
accomplish this, we interviewed Postal Service officials and reviewed tenancy
agreements, general ledger reports, and financial documentation pertaining to rental
payments. We randomly selected 30 individual tenancy agreements to review from a
universe of 561 recorded in the RAMPO at the beginning of FY 2010.

We conducted this review from October 2010 through June 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspections. We discussed our observations and conclusions with management officials
on May 10, 2011, and included their comments where appropriate.

We assessed the reliability of the data by interviewing officials responsible for data entry
and by reviewing lease documents, general ledger reports, and data from the RAMPO
report. We identified significant data reliability issues during the course of this review;
however, we deemed the actual lease agreements sufficiently reliable for the purposes
of this report and used them to assess the reliability of the computer generated data.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                                6
Internal Controls Over Facility Rental Income                                            DA-MA-11-003



                                APPENDIX B: DETAILED ANALYSIS

Inadequate Controls over Rental Income

The review identified noncompliance with policies governing rental income and
significant payment integrity issues resulting in at least $1,532,533 of rental income at
risk. Postal Service real property management procedures require rental income to be
recorded under the finance number of the facility7 outleasing or subleasing space and
accounting policies require general ledger accounts to be properly stated.

To evaluate controls over the rental income reporting process, we randomly sampled 30
of the 561 sublease/outlease agreements. We compared the rental income for FY 2010
as documented in the lease to the following three systems:

        General Ledger – rental income reported in Accounts 44046 – Rent, Private
        Concerns and 44047– Rent, U.S. Government Agencies.

        Accounting's Oracle database – payment records.

        RAMPO – outlease/sublease data.

Based on the 30 tenant agreements reviewed, 10 (or 33 percent) contained significant
reporting discrepancies.8 The value at risk associated with the discrepancies was
$1,532,533. Many of these records contained multiple inconsistencies resulting in
infractions in more than one evaluation category. Table 1 displays general information
on the types of discrepancies and the financial impact of each discrepancy on rental
income.

For three of the rental agreements, Postal Service Accounting did not have the
outlease/sublease notification form and, thus, were not monitoring monies due per the
tenant agreement. We confirmed two of the three agreements are active. We could not
determine whether the third, an antenna lease,9 is still active. The facility maintenance
manager conveyed that the antenna was still on top of the facility. The tenant/customer
agreement requires removal of equipment upon termination of the lease.




7
  Administrative Support Manual, Chapter 5, Section 517.34, Reporting Excess Space, Buildings, and Land.
8
  Discrepancies that are greater than 3 percent of the annual lease agreement.
9
  Antenna leases provide space on building rooftops to send and receive signals for cellular phones, pagers and
other voice data, and video communications.




                                                         7
Internal Controls Over Facility Rental Income                                         DA-MA-11-003



                    Table 1: Lease Agreements with Reporting Discrepancies

                                                                                             (Under) /Over
     Host Office Name            Space Type                       Discrepancy                  Reported
1                               Antenna             No record of the rental agreement in         ($13,608)
                                                    the out lease and sublease system.
2                               Office/Retail       Delinquent rental income payments.        ($1,477,977)
3                               Parking             Incorrect finance number used in              ($5,565)
                                                    the collection process.
4                               Antenna             Unable to verify annual lease rate            ($3,150)
                                                    due to incomplete record keeping.
5                               Office/Retail       Understated revenue due to tenants           ($10,395)
                                                    being billed incorrectly for the year.
6                               Antenna             No record of the rental agreement in          ($7,217)
                                                    the out lease and sublease system.
7                               Oil/Gas Lease       Procedural vulnerability because no              ($119)
                                                    record of the rental agreement is in
                                                    the Accounting system due to
                                                    variable payment schedule.
8                               Antenna             Difference between tenancy                    ($4,981)
                                                    agreement and Accounting system
                                                    records.
9                     -         Office/Retail       Delinquent rental income payments.            ($9,513)

10                              Credit Union        Overstated revenue based on rental                  $8
                                                    agreement.
Net Value of Discrepancies                                                                     $1,532,533



Ninety- seven percent (or $1.48 million) of the discrepancies related to agreements with
the GSA. The GSA made bulk payments to satisfy multiple tenant/customer
agreements. Because Accounting did not fully track these agreements at the individual
account level, missing payments for two records in our sample were not noted until the
OIG Office of Investigations notified Accounting.

We reconciled the tenant agreements for the remaining 20 records to the general
ledger, Accounting (Oracle database), and RAMPO records. Discrepancies were
insignificant.10




10
     Discrepancies that are less than 3 percent of the annual lease agreement.




                                                            8
Internal Controls Over Facility Rental Income                                            DA-MA-11-003



We considered internal controls over rental income ineffective because:

     The accounting system did not adequately support monitoring and tracking of rental
     payments at the tenant/customer account level. First, many tenants remitted rental
     payments without including their account identification number as required by the
     terms of the lease agreement. Second, as a result of the GSA’s lump sum payment
     practices, GSA rent payments were applied at a macro level to outstanding invoices
     rather than at the individual tenant/customer agreement level. Lastly, reports did not
     exist that would allow RAM to monitor and track payment activity at the individual
     tenant/customer account level. Accounting Data Mart reports provide rental income
     revenue but do not provide information at the customer account level.

     The roles and responsibilities of RAM and Accounting were not clearly defined
     relevant to the management and oversight of rental income. For example, RAM was
     responsible for managing all outlease and sublease agreements, but relied on
     Accounting for notification of delinquent payments. Accounting was unable to notify
     RAM of delinquent payments because payment activity is not tracked at the
     tenant/customer account level.

     RAM uses a manual process, vulnerable to human error, to track payment activity. In
     cases of non-payment, Accounting notifies RAM by providing a multi-page document
     in portable document format which RAM must scan and then take from and manually
     transfer applicable data to their tracking spreadsheet. In addition, due to human
     error, some lease agreements were not in the electronic Facility Management
     System or did not clearly state the annual rental income.

These weaknesses lessen the effectiveness of internal controls over rental income as
we estimate that at least 11111 of the 561 tenancy agreements held during FY 2010
contain some risk of payment error. Consequently, we estimate the Postal Service
placed at least $1,532,533 in rental payments at risk for potential fraud or loss. As such,
we will report this amount as other impact for having data integrity issues. In addition,
considering the Postal Service maintains significant excess space, adequately
controlling rental transactions provides the Postal Service an opportunity to securely
expand the economic benefits of tenancy agreements.




11
  Using a simple random sample methodology, 10 of 30 tenancy agreements contained payment errors. Based on
these results, we are 95 percent confident that at least 19.8 percent (111) of tenancy agreements have associated
payment errors.




                                                         9
Internal Controls Over Facility Rental Income                                     DA-MA-11-003




                                        APPENDIX C: OTHER IMPACTS


Finding                                                       Impact Category          Amount
Inadequate Controls over Rental                               Revenue at Risk12      $1,532,533
Income




12
     Revenue that the Postal Service is at risk of losing.




                                                             10
Internal Controls Over Facility Rental Income            DA-MA-11-003



                         APPENDIX D: MANAGEMENT’S COMMENTS




                                                11
Internal Controls Over Facility Rental Income        DA-MA-11-003




                                                12
